CAPITAL CASE NO. ____
IN THE

SUPREME COURT OF THE
UNITED STATES
___________________________________________
BRILEY W. PIPER, PETITIONER
vs.
UNITED STATES OF AMERICA,
RESPONDENT
_________________________________________

ON PETITION FOR A WRIT OF
CERTIORARI TO THE SOUTH DAKOTA
SUPREME COURT

___________________________________________
PETITION FOR A WRIT OF CERTIORARI
___________________________________________
RYAN KOLBECK*
Kolbeck Law Office
505 W. 9th St., Ste. 203
Sioux Falls, SD 57104
Telephone: (605) 306-4384
*Counsel of Record, Member of the Bar of the
Supreme Court
Counsel for Petitioner, Briley Piper

QUESTIONS PRESENTED
CAPITAL CASE
The South Dakota Supreme Court has ruled
that Briley did not knowingly and intelligently waive
his right to a jury trial. But the South Dakota
Supreme Court only remanded sentenced Piper to a
resentencing, not for a new trial. Piper v. Weber
(Piper II), 2009 S.D. 66, ¶17, 771 N.W.2d 352, 358-359
(S.D. 2009). The initial question is whether the
faulty pre-plea advising, applies to both the wavier of
jury trial and waiver of jury sentencing, requiring a
remand to allow Piper to make a knowing and
intelligent decision about whether to waive his Sixth
Amendment right to a jury trial. The second question
is whether the same prosecutor who argued two
different timelines, depending on who was on trial,
should have had his prior inconsistent statements
admitted as admissions by the State in Piper’s
resentencing. The final question is whether trial
counsel’s cumulated errors provided Piper ineffective
assistance of counsel.

i

PARTIES TO THE PROCEEDING
Petitioner is Briley W. Piper, defendantappellant below.
Respondent is the State of South Dakota,
plaintiff-appellee below, represented by Jason
Ravnsborg, Attorney General for the State of South
Dakota, 1302 East Highway14, Suite 1, Pierre, South
Dakota 57501-5070, atgservice@state.sd.us, (605)
773-3215.
State v. Piper (Piper I), 2006 S.D. 1, 709 N.W.2d 783.
Judgment entered January 4, 2006.
Piper v. Weber (Piper II), 2009 S.D. 66, 771 N.W.2d
352. Judgment entered July 29, 2009.
State v. Piper (Piper III), 2014 S.D. 2, 842 N.W.2d
338. Judgement entered January 8, 2014.
Piper v. Young (Piper IV), 2019 S.D. 65. Judgment
entered December 11, 2019.

ii

TABLE OF CONTENTS
Page(s)
Question Presented ...................................................... i
Parties to the Proceeding ............................................ ii
Table of Authorities .................................................... iv
Petition for Writ of Certiorari ..................................... 1
Jurisdiction .................................................................. 1
Relevant Constitutional Provisions ............................ 2
Opinions Below ............................................................ 3
Statement of the Case ................................................. 4
Reasons for Granting the Writ.................................... 9
Conclusion .................................................................. 33
Appendix A:
(South Dakota Supreme Court Opinion)
Appendix B
(Judgment of Conviction and Sentence)
Appendix C:
(Plea Hearing Transcript)
Appendix D:
(Elijah Page Partial Sentencing Transcript

iii

TABLE OF AUTHORITIES
United States Supreme Court Cases

Page(s)

Adams v. U. S. ex rel. McCann,
327 U.S. 269 (1942)

27

Allen v. McCurry, 449 U.S. 90 (1980)

19

Andres v. California, 386 U.S. 738 (1967)

28

Apprendi v. New Jersey, 530 U.S. 466 (2000)

16

Blakely v. Washington, 542 U.S. 296 (2004)

16

Bousley v. United States, 523 U.S. 614 (1998)

14

Boykin v. Alabama, 395 U.S. 238 (1969)
Bradshaw v. Strumpf, 545 U.S. 175 (2005)

6, 12
16, 22

California v. Ramos, 463 U.S. 992 (1983)

11

Davis v. Alaska, 415 U.S. 308 (1974)

30

Florida v. Nixon, 543 U.S. 175 (2004)

19

Gideon v. Wainwright, 372 U.S. 335 (1963)

26

Giglio v. United States, 405 U.S. 150 (1972)

25, 32

Harrington v. Richter, 562 U.S. 86 (2011)

27

Holmes v. South Carolina, 547 U.S. 319 (2006)

15

Illinios v. Rodriguez, 497 U.S. 177 (1990)

12

Iowa v. Tovar, 541 U.S. 77 (2004)

12

Johnson v. Williams, 568 U.S. 289 (2013)
Johnson v. Zerbst, 304 U.S. 458 (1938)

20
12, 26

Jones v. United States 526 U.S. 227 (1999)

16

Lockett v. Ohio, 438 U.S. 586 (1978)

22

iv

United States Supreme Court Cases (con’t)

Page #

McCarthy v. United States, 394 U.S. 459 (1969)

6

McCoy v. Louisiana, 138 S.Ct. 53 (2017)

29

Montana v. United States, 400 U.S. 147 (1979)

19

Moran v. Burbine, 475 U.S. 412 (1986)

6, 13

North Carolina v. Alford, 400 U.S. 25 (1970)

6, 18

Parke v. Raley, 506 U.S. 20 (1992)

6, 18

Powell v. Alabama, 287 U.S. 45 (1932)

26, 27

Ring v. Arizona, 536 U.S. 584 (2002)

5

Roper v. Simmons, 543 U.S. 551 (2005)

21

Skipper v. South Carolina, 476 U.S. 104 (1982)

21

Strickland v. Washington,
466 U.S. 668 (1984)

8, 18, 26

Sullivan v. Louisiana, 508 U.S. 275 (1993)
United Sates v. Cronic, 466 U.S. 648 (1984)

17
9, 28

United States v. Gonzalez-Lopez,
548 U.S. 140 (2006)

19

United States v. Jackson, 390 U.S. 570 (1968)

14

United States v. Ruiz, 536 U.S. 622 (1988)

16

Williams v. Taylor, 529 U.S. 362 (2000)

21

Court of Appeals
Higgins v. Renico, 470 F.3d 624 (6th Cir. 2006)

31

Lindstadt v. Keane, 239 F.3d 191 (2nd Cir. 2001)

31

v

Court of Appeals continued

(Page #)

Parkus v. Delo, 33 F.3d 933 (8th Cir. 1994)

22

Smith v. Secretary, Dept. of Corrections,
572 F.3d 1327 (11th Cir. 2009)

31

Thompson v. Calderon,
120 F.3d 1047 (9th Cir. 1997)

22, 30

United States v. Bakshinian,
65 F.Supp2d 1004 (C.D. Cal 1999)

25

United States v. Groose,
205 F.3d 1045 (8th Cir. 2000)

24

United States v. Higgs,
353 F.3d 281 (4th Cir. 2003)

24

United States v. Kattar,
840 F.2d 118 (1st Cir. 1988)

24

United States v. Martin,
704 F.2d 267 (6th Cir. 1983)

20

United States v. Salerno,
937 F.2d 797 (2nd Cir. 1991)

24

Walls v. Bowersox, 151 F.3d 827 (8th Cir. 1998)

28

State Court Cases
Hoover v. State, 552 So.2d 834 (Miss. 1989)
Ramos v. Weber, 616 N.W.2d 88 (2000)

24
8

Piper v. Weber (Piper II),
2009 S.D. 66

i, ii, 3, 5, 6, 7, 9, 10, 13, 17, 18, 20

vi

State Court Cases Continued

(Page #)

Piper v. Young (Piper IV), 2019 S.D. 65 ii, 3, 7, 9, 17
State v. Piper (Piper I), 2006 S.D. 1
State v. Piper (Piper III), 2014 S.D. 2

ii, 3, 5
ii, 3, 6, 7, 18

State v. Sewell, 69 S.D. 494 (1943)

17

State v. Wiegers, 373 N.W.2d 1 (S.D. 1985)

30

United States Constitution
U.S. Const. Eighth Amendment

22

U.S. Const. Fifth Amendment

2, 14 15

U.S. Const. Fourteenth Amendment

2, 22, 26

U.S. Const. Sixth Amendment
2,14, 15, 26, 27, 28, 30, 31
Statutes
South Dakota Codified Law 19-19-607

30

South Dakota Codified Law 19-19-608

30

South Dakota Codified Law 19-19-609

30

South Dakota Codified Law 23A-27-11

8, 22

South Dakota Codified Law 23A-27A-1

8, 22, 29

South Dakota Codified Law 23A-27A-2

22

South Dakota Codified Law 23A-27A-14

6

28 U.S.C. §1254(1)

1

vii

Other Authority

Page #

Convictions Based on Lies:
Defining Due Process Protection,
Anne Bowen Poulin,
1116 PENN ST. L. REV. 331 (2011)

viii

32

IN THE SUPREME COURT OF THE UNITED
STATES
_________________ TERM, 2020
_____________________________________________
BRILEY W. PIPER,
Petitioner,
vs.
State of South Dakota,
Respondent.
_____________________________________________
PETITION FOR WRIT OF CERTIORARI
Petitioner Briley Piper respectfully petitions for
a writ of certiorari to review the judgment of the South
Dakota Supreme Court.
JURISDICTION
The South Dakota Supreme Court denied relief
on December 11, 2019. This Court has jurisdiction
under 28 U.S.C. §1254(1).

1

RELEVANT CONSTITUTIONAL PROVISIONS
The Fifth Amendment to the United States
Constitution provides:
No person shall . . . be deprived of life, liberty,
or property, without due process of law . . . .
The Sixth Amendment to the United States
Constitution provides:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the State and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining
witnesses in his favor, and to have the
Assistance of Counsel for his defense.
The Fourteenth Amendment to the United States
Constitution, Section 1, provides:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States, nor shall any
state deprive any person of life, liberty, or
property, without due process of law.

2

OPINIONS BELOW
Chester Allan Poage was murdered in a rural
mountainous area of the northern Black Hills, located
in Lawrence County, South Dakota, in March of 2000.
The State of South Dakota prosecuted three young
men and sought the death penalty for all three. The
first defendant, Elijah Page, waived his jury trial and
was sentenced to death by the trial judge. State v.
Elijah Page, Lawrence County, South Dakota, File
40c00000430A0. The South Dakota Supreme Court
affirmed the trial and Page was executed in 2007.
State v. Page, 709 N.W.2d 739 (S.D. 2006). The other
defendant, Darrell Hoadley, received life in prison
from a Lawrence County jury, with this judgment also
affirmed by the South Dakota Supreme Court. State
v. Hoadley, 651 N.W.2d 249 (S.D. 2002).
Briley Piper was improperly advised of his
rights and then waived his right to a jury trial in 2001
jury trial and sentencing. The trial Court sentenced
him to death.
The original Supreme Court
affirmance of the initial death sentence, Piper I, is
cited as State v. Piper, 2006 S.D. 1, 709 N.W.2d 783.
Piper II, the first habeas corpus proceeding where the
South Dakota Supreme Court determined the plea
was not knowingly and intelligently made, but only
remanded for resentencing, is Piper v. Weber, 2009
S.D. 66, 771 N.W.2d 352. Piper III, the affirmance of
the jury resentencing and denial of Piper’s first motion
to withdraw his pleas, is cited as State v. Piper, 2014
S.D. 2, 842 N.W.2d 338. Piper IV, the most recent
opinion of the South Dakota Supreme Court,
containing the denial of the issues presented in this
Writ of Certiorari, is Piper v. Young, 2019 S.D. 65.

3

STATEMENT OF THE CASE
Back in 2001, the trial Court Judge misadvised
Briley Piper of the jury function at a sentencing
hearing three different times. The first time, the
judge explained that the jury would:
. . . determine whether or not the State
has proved one or more aggravating
circumstances and then for that jury to
decide whether the penalty should be life
or death. The verdict of the jury would
have to be unanimous. . . .
Piper, Plea, 16.1
It would be reasonable from this advisement to
conclude that the jury's decision on punishment (“life
or death”, in the court's words) “would have to be
unanimous” either way. Both the prosecutor and
Piper's attorney promptly affirmed this advice, and
Piper promptly said (for the only time in the entire
hearing) that he did not understand and had a
question.
The Court answered the question by
stating:
Court: What you need to understand is
that if you have a jury instead of a judge,
all 12 jurors must agree on the penalty…
Piper then said he understood. The Court
then, for the third time, misadvised Piper:
Court: What is significant about what
you're doing here today is that if you
waive your right to have the jury do the
1 All references to trial transcripts will be name the defendant,
the name of the hearing, and page number in the Appendix.

4

sentencing, you are trading 12 lay people
for one judge to make that call. Do you
understand that?
Piper:

Yes.

Piper, Plea, 17-18, Appendix C.
It is undisputed that Piper’s attorneys, and the
trial court, gave two separate but connected faulty
advisements before Piper made the decision to plead
guilty in a capital murder case. The first undisputed
error concerned jury unanimity at the penalty trial,
which was the precise issue presented to the South
Dakota State Supreme Court and decided in Piper II
(at ¶¶11-12 [the judicial advisement] and ¶19
[holding]). The second undisputed error is Piper's
certainty, based on what he was told, that the forum
for the guilt and the sentencing determinations was
legally required to be identical. What the court then
told Piper transforms this reasonable interpretation
into the only one which was possible. (Emphasis
added.)
After the initial death sentencing, Piper’s
attorneys in Piper I argued the South Dakota death
penalty statutes were unconstitutional, partially
based on Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428,
153 L.Ed.2d 556 (2002).
In Ring, this Court
determined that “a capital sentencing scheme would
be unconstitutional if it prevented a defendant who
pleaded guilty from having alleged aggravating
circumstances found by a jury. Id. at 609. A
majority of the South Dakota Supreme Court
determined the statutes were constitutional, because
“other statutes provide the right” to a jury trial,
though the sentencing scheme did not. Piper I, at

5

¶56.
Piper then sought habeas review, claiming the
plea was unconstitutional because it was not knowing
and intelligently made. Piper’s habeas appellate
counsel sought life in prison as the appropriate
remedy because that is what SDCL 23A-27A-14, the
2001 death penalty statutes, provided. This time, the
South Dakota Supreme Court agreed Piper’s waiver of
a jury trial was not knowing or voluntary. Piper II,
at ¶19. The Court, however, only remanded for a new
sentencing proceeding. Id. at ¶21.
Piper then moved in 2009 for the first time to
withdraw his guilty pleas pursuant to SDCL 23A-2711, arguing the legal conclusion that Piper II made:
he did not knowing and intelligently waive his right to
a jury trial in violation of Boykin v. Alabama, 395 U.S.
238 (1969) and Moran v. Burbine, 475 U.S. 412, 421
(1986). See also North Carolina v. Alford, 400 U.S.
25, 31, 27 L. Ed. 2d 162, 91 S. Ct. 160 (1970) (holding
that the standard is whether the plea is a voluntary
and intelligent choice among the alternative course of
action); Parke v. Raley, 506 U.S. 20, 28-29, 113 S.Ct.
517, 523, 121 L.Ed.2d 391, 403 (1992); McCarthy v.
United States, 394 U.S. 459, 466, 22 L. Ed. 2d 418, 89
S. Ct. 1166 (1969).
In Piper III, the South Dakota Supreme Court
ruled the trial court had no jurisdiction to entertain
the plea-withdrawal motion, as the Piper II remand
language for resentencing restricted the South Dakota
Supreme Court’s jurisdiction. The Piper III decision
explicitly noted that the South Dakota Supreme Court
was not deciding the merits of Piper’s plea-withdrawal
claim which, at the time of the Piper III decision, had
not been decided by any court. Piper III, ¶44.

6

The resentencing occurred in 2011, with the
jury finding the existence of three aggravating factors
and imposing death. This sentence was affirmed on
direct appeal by Piper III.
Multiple federal
constitutional errors are present during this
resentencing. Initially, Piper claimed the pleas were
not knowing and voluntarily. Further, Piper argued
the prosecutor advanced inconsistent arguments and
the defense counsel provided ineffective assistance of
counsel.
The Constitutional habeas issue regarding the
Constitutionality of the plea advisement is squarely
governed by the South Dakota Supreme Court’s
decision in Piper II. The South Dakota Supreme
Court in 2019 had a change of mind from 2009,
however, and contrary to the case law of this Court,
determined the only inference that can be drawn from
the record is that Piper’s plea was voluntary. Piper
IV, at ¶38.
Second, as three individuals were charged with
murder, the county prosecutor tried three separate
trials. He used an inconsistent timeline, however,
when prosecuting both Elijah Page 2 in 2001 and
Briley Piper in 2011. These prior statements are
mitigation evidence as an inference could be drawn by
the admissions of the prosecutor relative to Piper’s
culpability compared to the other two accused.
In 2001, the Lawrence County prosecutor
argued Elijah Page started it all:

That’s when it all started is when he
[Elijah Page] pointed the gun at Chester
2 State v. Elijah Page, Lawrence County, South Dakota, File
40C00000430A0.

7

Allan Poage to facilitate this kidnapping.
. . . The Defendant [Elijah Page] is the
one that started the assault with pulling
the gun.
Appendix D: Page,
added.)

Sentencing,

947.

(Emphasis

In 2011, the same Lawrence County prosecutor
argued it was Briley Piper:

And he [Briley Piper] was the one that
did the first act of actual aggression to
knock the man unconscious.
Piper, Re-Sentencing, 1807. (Emphasis added.)
Arguing the 2001 statements were inconsistent
with the arguments made in 2011 and were proper
mitigation evidence, the defense moved to admit these
inconsistent statements as an Admission of Party
Opponent. This motion was denied. Piper ReSentencing, 1721-1730. Piper appealed this issue,
and the South Dakota Supreme Court dismissed the
claim and held the statements were not inconsistent,
and the issue was precluded based on res judicata and
Ramos v. Weber, 616 N.W.2d 88 (2000).
Third, during the 2011 resentencing, numerous
cumulative deficiencies exist to show the attorneys
provided ineffective assistance of counsel pursuant to
Strickland v. Washington, 466 U.S. 668, 687 (1984).
First, the defense called two experts during the
mitigation phase who admitted to the three
aggravating factors within SDCL 23A-27A-1 that the
State of South Dakota needed to prove to impose the
death penalty. Piper Re-Sentencing, 1572 – 1573,
1641, 1647, 1655, 1689. With this testimony, the

8

nature of this proceeding shifted from to adversarial
to non-adversarial, in violation of U.S. v. Cronic, 466
U.S. 648 (1984). The South Dakota Supreme Court
ruled that while the decision to call the experts was
deficient, the court could not conclude the tactical
decision impacted the resentencing. Piper IV, at ¶56.
Next, though the time between the two
sentencing trials was nearly a decade, the defense did
not obtain an updated criminal history of a jail
informant witness named Tom Curtis. An updated
criminal history would have revealed several rape
charges the defense did not know about, and could not
use for impeachment purposes. Piper Habeas Trial,
50, 52, 364. Finally, during the testimony of a
Catholic nun who befriended Piper, the defense team
permitted the prosecutor to mislead the jury about
whether Piper violated a prison policy, impeaching the
essential mitigation witness. Piper, Re-Sentencing,
1806. The South Dakota Supreme Court again found
there was no prejudice in allowing the testimony.
Piper IV, at ¶67.
REASONS FOR GRANTING THE WRIT
The Court should grant a writ of certiorari to
recognize adherence to well-established precedent
that a person must knowingly and intelligently waive
his right to a jury trial, let alone in a death penalty
case.
Since the waiver of jury sentencing was
constitutionally invalid, so is the guilty plea waiver.
Applying res judicata when the law was unclear is an
error as it would have required trial counsel to engage
in judicial guessing when the parties did not yet know
the legal conclusion of Piper II. As a result, any prior

9

motions to withdrawal the guilty plea would have been
premature. In essence, a judicially determined faulty
pre-plea advisement should immediately bring the
case back to when the advisement occurred, prior to
any change of plea hearing.
The Court should also grant the writ of
certiorari to recognize that all mitigation evidence,
including arguments made by a prosecutor that
reduced Piper’s culpability, shall be admitted into
trial.
Finally, this writ of certiorari should be
granted as trial counsel, by failing to subject the
evidence to adversarial testing, provided ineffective
assistance of counsel.
I. AFFIRMING THE DECISION WILL PERMIT
AN UNCONSTITUTIONAL WAIVER OF A
SIXTH AMENDENT RIGHT TO A JURY TRIAL
IN A CAPITAL MURDER CASE.
The South Dakota Supreme Court recognized in
2009:
“Piper's attorneys advised him that the
statute did not allow for a jury trial on
the penalty phase after a guilty plea to
first degree murder. . . . The judge's
explanation did not clearly dispel that
misunderstanding.”
Piper II, 2009 S.D. 66 at ¶17. The South Dakota
Supreme Court went on to confirm that:
“The defendant’s plea cannot be
considered knowing and voluntary
without a clear explanation and

10

understanding of this concept.
The
judge’s explanation fell short of the
required
clarity
in
this
case….Consequently,
without
an
adequate explanation by the judge that
one juror could, in effect, choose life,
Piper’s waiver of a jury trial on the death
penalty cannot be considered knowing or
voluntary. Furthermore, the finality of
a death sentence requires that we accord
higher scrutiny to capital sentencing.
(Citing California v. Ramos, 463 U.S.
992, 103 S.Ct. 3446, 77 L.Ed.2d 1171
(1983)).
Id. at 19.
Piper’s attorneys told him explicitly that if he
had a jury trial on guilt, he had to have a jury trial on
sentencing. They also told Piper that if he waived his
right to a trial in the guilt phase, and pleaded guilty
instead, he had to be sentenced by the judge. We also
know, from the plea-taking transcript, that the judge
(at the beginning of the hearing, in Piper's presence)
was told the same thing by defense counsel. The
judge, in Piper's presence, took a break. When he
returned to court, he ratified this advice by his silence
-- he said nothing at all to tell Piper that this was not
correct advice. We also know that what the judge
ended up telling Piper explicitly confirmed this advice
-- that jury-sentencing waiver was a “consequence” of
the plea, and that once the plea was entered, judge
sentencing would happen next. That's just what
happened. A plea (to the charges) was entered, and
no further waiver of any kind took place.
This pre-plea mis-advising is a substantive

11

free-standing Constitutional due process claim. If
Piper’s purported waiver of his jury trial right was not
made knowingly and intelligently, it is “void” as a
violation of due process. Boykin v. Alabama, 395 U.S.
238, 243, 89 S.Ct. 1709, 23 L.Ed.2d 274 (1969). In
Boykin, the Court held that if a guilty plea is not a
"voluntary and knowing" waiver of the right to jury
trial, "it has been obtained in violation of due process
and is therefore void."
"We have been unyielding in our insistence that
a defendant's waiver of his trial rights cannot be given
effect unless it is 'knowing' and 'intelligent'." Illinois
v. Rodriguez, 497 U.S. 177, 183, 110 S.Ct. 2793, 111
L.Ed.2d 148 (1990) (Emphasis added.) A wavier is
defined as an intentional relinquishment of a “known
right or privilege”. Johnson v. Zerbst, 304 U.S. 458,
464, 58 S.Ct.1019, 1023, 82 L.Ed.1461, 1466 (1938)
(pointing out that "courts indulge every reasonable
presumption against waiver" of fundamental
constitutional rights and that we "do not presume
acquiescence in the loss of fundamental rights").
The importance of a valid informed
waiver cannot be underestimated.
"What is at stake for an accused facing
death or imprisonment demands the
utmost solicitude of which courts are
capable in canvassing the matter with
the accused to make sure he has a full
understanding of what the plea connotes
and of its consequences." Boykin, at
244. In Iowa v.Tovar, 541 U.S. 77, 81,
124 S.Ct. 1379, 1383, 158 L.Ed.2d 209,
215-16 (2004), the Court determined that
for a valid waiver, the defendant must

12

fully understand the nature of the right
and how it would apply in the
circumstances. (Emphasis added.)
Here, we know Piper did not understand his
rights at all. As explained in Moran v. Burbine, 475
U.S. 412, 421 (1986) (citations omitted):
"The [waiver] inquiry has two distinct
dimensions. . . .
First, the
relinquishment of the right must have
been voluntary in the sense that it was
the product of a free and deliberate
choice
rather
than
intimidation,
coercion, or deception.
Second, the
waiver must have been made with a full
awareness of both the nature of the right
being abandoned and the consequences
of the decision to abandon it."
Piper's plea fails both parts of the Burbine test.
First, Piper was never given "a full awareness of both
the nature of the right being abandoned" and its
consequences. He was advised only of a version of the
right which has now twice been held invalid. He was
not told of the version which is Constitutionally
guaranteed -- a jury trial as to guilt which is
independent of the penalty forum, without the
coercive unanimity misadvice.
Second, Piper's plea was not a "free and
deliberate choice rather than intimidation, coercion,
or deception" (Burbine, supra). He was told that if he
exercised his right to a jury trial and was found guilty,
a jury sentencing was mandatory and the verdict
unanimous.
Piper II, at ¶17.
The unanimity
misadvise, therefore, taints the guilty plea itself,

13

because the confluence of those two misadvisements
has an unconstitutional, impermissibly coercive effect,
rendering the plea involuntary.
In Bousley v. United States, 523 U.S. 614, 618619, 118 S.Ct. 1604, 140 L.Ed.2d 828 (1998), this
Court emphasized the importance of the plea as a
waiver of several Constitutional rights. This Court
found that when the lower Court, counsel and the
Defendant all misunderstood the essential elements of
a crime, the plea is constitutionally invalid. Id. at
618-619. With this adherence to the significance of
the event, it is non-sensical to otherwise permit a plea
when the Court, counsel and the Defendant all
misunderstood the essential jury trial rights Piper
was waiving.
The South Dakota Supreme Court’s remedy of
a remand to a procedural position after the plea will
always be inadequate. It is baffling to conclude that,
even though the previous misadvisements rendered
Piper's previous decision unconstitutional, the South
Dakota Supreme Court still refuses to allow Piper to
rethink his decision with the assistance of correct trial
advice.
This Court has overturned statutes based on
the fundamental principle that a valid waiver cannot
be coerced. In United States v. Jackson, 390 U.S. 570
(1968), the Court was faced with a federal kidnapping
statute which provided for the possibility of a death
sentence, but only if the defendant exercised his right
to a jury trial. The Court invalidated that portion of
the statute. "The inevitable effect of [the law] is, of
course, to discourage assertion of the Fifth
Amendment right to plead not guilty and to deter
exercise of the Sixth Amendment right to demand a

14

jury trial." Id. at 581. "Whatever might be said of
Congress' objectives, they cannot be pursued by means
that needlessly chill the exercise of basic
constitutional rights. . . . The question is not whether
the chilling effect is 'incidental' rather than
intentional; the question is whether that effect is
unnecessary and therefore excessive." Id. at 582.
Those cases dealt with statutory schemes, but
the identical evil is present here. The plea colloquy's
misadvisements "needlessly chill[ed] the exercise of
basic constitutional rights", because they informed
Piper -- wrongly -- that his chances of a life sentence
were worse with a jury, and that the only way to avoid
a jury sentencing was by pleading guilty to the
criminal charges. This transformed the required
"free and deliberate choice" into one colored by
"intimidation, coercion or deception" (Burbine, supra).
Piper was offered a choice, but with a judicial thumb
on the scale.
A state court cannot restrict a
defendant's exercise of a fundamental constitutional
right without good reason. This Court has long
adhered to this principle, applying it to a wide variety
of state restrictions on a wide variety of constitutional
trial rights. See Holmes v. South Carolina, 547 U.S.
319, 321, 126 S.Ct. 1727, 164 L.Ed.2d 503 (2006)
(collecting precedent). The misadvice given to Piper
"discourage[d] assertion of the Fifth Amendment right
to plead not guilty and ... deter[red] exercise of the
Sixth Amendment right to demand a jury trial".
Jackson, 390 U.S. at 581. Piper's decision to plead
guilty cannot be considered a voluntary waiver of his
actual jury-trial right.
The reality of this case is that Piper was
deprived of his Sixth Amendment right to a jury trial

15

because he was not told that it existed (a jury trial on
guilt, which did not carry mandatory jury sentencing)
and because the tainted jury sentencing he was
advised of could only be avoided by pleading guilty to
the criminal charges. The right to a jury trial is a
"constitutional protection of surpassing importance".
Apprendi v. New Jersey, 530 U.S. 466, 476-77, 120
S.Ct. 2358, 147 L.Ed.2d 435 (2000). This is unlike an
advising regarding the elements of the offense only
and impeachment evidence.
See Bradshaw v.
Strumpf, 545 U.S. 175, 182-183, 125 U.S. 2398, 240506, 162 L.Ed.2d 143, 153-54 (2005); and United States
v. Ruiz, 536 U.S. 622, 628-29, 153 L.Ed.2d 586, 595,
108 S.Ct. 2389, 2455 (1988).
This right was insisted upon by the Framers
not just for the protection of the accused, but for an
independent and equally fundamental purpose: to
restrict the power of the judiciary, by reserving that
power to the people. See Jones v. United States, 526
U.S. 227, 244-48, 119 S.Ct. 1215, 143 L.Ed.2d 311
(1999).
"Our commitment to Apprendi in this
context reflects not just respect for
longstanding precedent, but the need to
give intelligible content to the right of
jury
trial. That right is no mere procedural
formality, but a fundamental reservation
of power in our constitutional structure.
Just as suffrage ensures the people's
ultimate control in the legislative and
executive branches, jury trial is meant to
ensure their control in the judiciary."
Blakely v. Washington, 542 U.S. 296, 305-06, 124 S.Ct.
2531, 159 L.Ed.2d 403 (2004).

16

Finally, "to hypothesize a guilty verdict that was
never in fact rendered -- no matter how inescapable the
findings to support that verdict might be -- would violate
the jury-trial guarantee." Sullivan v. Louisiana, 508
U.S. 275, 279, 113 S.Ct. 2078, 124 L.Ed.2d 182 (1993).
To uphold this guilty plea is to trivialize and
dilute this Constitutional right of “surpassing
importance”. A capital defendant, more than others,
is entitled to accurate advice before making the crucial
decision whether to plead guilty. Courts are to
exercise “the utmost of caution”, giving a “painstaking
explanation” of rights and consequences. State v.
Sewell, 69 S.D. 494, 12 N.W.2dd 198, 199 (1943).
Here, the advice given to Piper was wrong in two
important respects, and it took Piper II to be decided
before Piper could be given the accurate advice he
needed before making a knowingly and voluntary
waiver of his jury trial and jury sentencing. He must
be afforded that opportunity.
This advising was inadequate in 2001, 2009,
and 2020. Time does not heal a faulty waiver’s
wounds.
a. Res Judicata does not bar Piper’s claim.
The South Dakota Supreme Court incorrectly
held that res judicata bars Piper’s claim and the
motion to withdraw his guilty pleas. Piper IV, ¶25.
The South Dakota Supreme Court wrote that Piper’s
due process claim challenging his guilty pleas was
twice procedurally defaulted, as Piper failed to raise
the issue in his direct appeal (Piper I) and “overlooked”
the claim during his initial habeas in Piper II.
Making the claim at that time, however, would have
required the attorneys to claim the plea was

17

unknowing and unintelligent prior to the Supreme
Court ruling that it was so. Further, any choice by
Piper before Piper II would have been uninformed,
and therefore not voluntary.
“The standard was and remains whether the
plea represents a voluntary and intelligent choice
among the alternative courses of action open to the
defendant.” North Carolina v. Alford, 400 U.S. 25,
31, 27 L.Ed.2d 162, 91 S.Ct. 160 (1970). See Parke v.
Raley, 506 U.S. 20, 29, 113 S.Ct. 517, 523, 121 L.Ed.2d
391, 403 (1992). It was not until after the Piper II
decision, however, that Piper could finally be advised
about what the alternative courses of action were
available to him. Any decision before Piper II would
have been uninformed.
The primary issue in 2009 before the South
Dakota Supreme Court in Piper II, was whether the
plea was defective, not what must be done as the
remedy. The remedy was barely discussed, but only
chosen because life in prison under the 2001 statutory
scheme was the only other sentencing option for a jury
during a death penalty trial. Piper III, at ¶20. But
this was not the only option for a remedy by the South
Dakota Supreme Court, as no statute restricts the
Supreme Court available remedies after finding a
Constitutional violation.
Since his habeas proceeding vigorously
challenged the professional competence of his previous
attorneys' appellate work, it was obvious that Piper
would receive new counsel.
Applying any issue
preclusion doctrine today would be to "interfere with
the constitutionally protected independence of counsel
and restrict the wide latitude counsel must have in
making tactical decisions."
Strickland v.

18

Washington, 466 U.S. 668, 689, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). The importance of independent
counsel, and how it might affect Piper's choice of
pleading versus going to trial, has been recognized by
this Court:
"Different attorneys will pursue different
strategies with regard to investigation
and discovery, development of the theory
of defense, selection of the jury,
presentation of the witnesses, and style
of witness examination and jury
argument. And the choice of attorney will
affect whether and on what terms the
defendant
cooperates
with
the
prosecution, plea bargains, or decides
instead to go to trial."
United States v. Gonzalez-Lopez, 548 U.S. 140, 150,
126 S.Ct. 2557, 165 L.Ed.2d 409 (2006). See also
Florida v. Nixon, 543 U.S. 175, 187, 125 S.Ct. 551, 160
L.Ed.2d 565 (2004) (though the decision "whether to
plead guilty" is defendant's alone, "an attorney must
both consult the defendant and obtain consent to the
recommended course of action.")
Res judicata supports the policy of relieving
parties of the cost and vexation of multiple lawsuits
and conserving judicial resources. Allen v. McCurry,
449 U.S. 90, 66 L.Ed.2d 308, 201 S.Ct. 411 (1980).
Applying res judicata in this case has provided the
opposite result as litigation since the inadequate
remand has focused on this issue. See Montana v.
United States, 400 U.S. 147, 59 L.ED.2d 210, 99
S.Ct.970 (1979) (stating the concept of collateral
estoppel cannot apply in a subsequent federal action
when the party against whom the decision was made

19

did not have a full and fair opportunity to litigate the
issue). A claim, dismissed for lack of jurisdiction, did
not have a decision “on the merits”. Johnson v.
Williams, 568 U.S. 289, 308-309, 133 S.Ct. 1088, 185
L.ED.2d 105 (2013) (presumption of adjudication
disappears when a claim is dismissed because of a
want of jurisdiction).
For Piper’s plea decision to be knowing and
intelligently made, it could have only been made after
Piper II, upon proper reliance of Piper II and the
judicial determination of whether the advisement was
proper. The decision should not have been made at
that point because no attorney would have known the
correct advice to give Piper. It was only after the
appellate decision and after returning to criminal
court that Piper finally had complete judicial
correction of the pre-plea misadvise. It was only at
that point (when correct advice is finally furnished)
that a criminal defendant's plea decision is to be made.
Any decision made prior to this point would have
resulted in judicial guessing about how the South
Dakota Supreme Court would rule.
Calling Piper’s plea a strategic choice is not a
substitute for a valid waiver because Piper was not
informed. “A defendant can hardly be said to make a
strategic decision to waive his jury trial right if he is
not aware of the nature of the right or the
consequences of the waiver.”
United States v.
Martin, 704 F.2d 267, 273 n. 5 (6th Cir. 1983). In
other words, the question of a knowing and intelligent
waiver of a fundamental constitutional right comes
first. It cannot be dispensed with merely by claiming
that the waiver (here, the plea) is the product of a
defendant’s choice. That choice must first be fully

20

informed and knowing before it may be made.
To affirm the trial court, this Court would have
to decide that Piper should be forever shackled to the
choice that he made in 2001, made after erroneous
legal advice from his attorneys and from the pleataking judge -- advice which the South Dakota
Supreme Court has held to have rendered his earlier
choice unconstitutional. The misadvice as to penaltyjury unanimity told him that his chances of obtaining
a life sentence were greater with a judge than with a
jury, when just the opposite is true. Further, Piper
was also told that the only way he could obtain a judge
sentencing was to plead guilty to the criminal charges.
In light of this, application of the res judicata doctrine
to prohibit Piper’s claim is erroneous. The South
Dakota Supreme Court must be reversed.
II. WHETHER FEDERAL DUE PROCESS
REQUIRES REVERSAL WHEN NOT ALL
MITIGATION EVIDENCE, SPECIFICALLY
INCONSISTENT ADMISSIONS BY THE STATE,
WAS PRESENTED TO THE JURY.
United States Supreme Court decisions
indicate that the failure to allow a capital defendant
to present mitigation evidence may constitute
reversible error. Roper v. Simmons, 543 U.S. 551,
568, 125 S.Ct. 1183, 161 L.Ed.2d 1 (2005) (finding the
Constitution requires that a capital defendant be
given “wide latitude” to present mitigating evidence);
Williams v. Taylor, 529 U.S. 362, 393, 120 S.Ct. 1495,
146 L.Ed.2d 389 (2000) (noting a capital defendant’s
“undisputed” and “constitutionally protected right . . .

21

to provide the jury with . . . mitigating evidence”);
Skipper v. South Carolina, 476 U.S. 1, 106 S.Ct. 1669,
90 L.Ed.2d 1 (1986) (concluding the improper
exclusion of mitigation evidence at capital sentencing
hearing was reversible error); Eddings v. Oklahoma,
455 U.S. 104, 110-116 102 S.Ct. 869, 71 L.Ed.2d 1
(1982) (vacating a death sentence because it was
imposed without the type of individualized
consideration of mitigating factors . . . required by the
Eighth and Fourteenth Amendments in capital cases);
Lockett v. Ohio, 438 U.S. 586, 604-05, 98 S.Ct. 2954,
57 L.Ed.2d 973 (1978) (finding the sentence must be
allowed to consider any mitigating evidence).
Further, South Dakota statutes mandate mitigation
evidence be presented in a death penalty case. SDCL
23A-27A-2 requires that “(4) All evidence concerning
any mitigating circumstances” be considered. SDCL
23A-27A-1 provides “the judge shall consider . . . any
mitigating circumstances.”
Confidence in the outcome of the proceeding is
undermined by the jury’s inability to consider
mitigation evidence. Parkus v. Delo, 33 F.3d 933, 940
(8th Cir. 1994); See Thompson v. Calderon, 120 F.3d
1047, 1059 (9th Cir. 1997) (it is well established that
when no new significant evidence comes to light a
prosecutor cannot, in order to convict two defendants
at separate trials, offer inconsistent theories and facts
regarding the same crime).
In Bradshaw v. Strumpf, the United States
Supreme Court reviewed how the defendant’s
“principal role in the offense was material to (a)
sentencing determination”. 545 U.S. 175, 187-88
(2005). In Bradshaw, this Court vacated a portion of
the judgment relating to the prosecutorial

22

inconsistency claim and remanded the case for
additional proceedings. Id. This Court determined
that the prosecutor’s use of allegedly inconsistent
theories may have had an impact on Strumpf’s
sentence. Id.
In Piper’s case, the Lawrence County
prosecutor constantly portrayed Piper as the “leader”
of this group. Piper, Re-Sentencing, 1806. Any
evidence to the contrary, such as that someone else
committed the first act of aggression, is relevant to
diminish Piper’s culpability.
In Elijah Page’s case, the Lawrence County
prosecutor portrayed Page as the “leader” of this
group:
He’s [Elijah Page] the one that stole the
gun that was used in the first acts of
aggression. That’s when it all started is

when he [Elijah Page] pointed the gun at
Chester Allan Poage to facilitate this
kidnapping.
Nothing would have

happened had he [Elijah Page] not
pointed the gun at Chester Allan Poage’s
head.

The Defendant [Elijah Page] is the one
that started the assault with pulling the
gun.
The Defendant [Elijah Page]
deliberately kicked Chester Allan Poage
with his boots until his own foot got sore.
He decided to do that. He chose to do
that. He’s not a follower, he’s a doer.
He’s an instigator, he’s an actor. Piper
is the mouth, the Defendant’s [Elijah
Page] the action.

23

Page Sentencing, 947. (Emphasis added). Appendix
D.
In 2011, it was the Briley Piper:

And he [Briley Piper] was the one that
did the first act of actual aggression to
knock the man unconscious.
Piper, Re-Sentencing, 1807. (Emphasis added).
Other courts have ruled that mitigation
evidence can include the Government’s inconsistent
prior arguments when multiple people have been tried
for the same offense. See United States v. Salerno,
937 F.2d 797, 811-812 (2nd Cir. 1991) (opining that
government’s opening and closing arguments in a
prior trial should have been admitted as admissions of
party-opponent in a subsequent trial to show
inconsistent positions of the government); Hoover v.
State, 552 So.2d 834, 838 (Miss. 1989) (prosecutor’s
inconsistent argument regarding who was the shooter
should have been admitted at co-defendant’s later
trial but no prejudice was found); United States v.
Kattar, 840 F.2d 118, 130 (1st Cir. 1988) (concluding
the Government, as represented by prosecutor, is
considered “party-opponent” of defendant in a
criminal case).
For the statements to be admitted, the Eighth
Circuit has required “an inconsistency must exist at
the core of the prosecutor’s case against the
defendants for the same crime” in order to prevent a
due process violation. Smith v. Groose, 205 F.3d
1045, 1047 (8th Cir. 2000) (finding a due process
violation when the prosecutor manipulated evidence
by using different and conflicting statements from
same cooperating witness); See United States v.

24

Higgs, 353 F.3d 281, 326 (4th Cir. 2003) (noting how a
due process violation can occur with the use of
inherently
factually
contradictory
theories).
Further, the prosecutor in the current case adopted
and believed the arguments he made against Elijah
Page to be true and this was in the scope of his
relationship as the county prosecutor. As a result,
the statements made by the prosecutor in prosecuting
Elijah Page qualify as an admission on behalf of
Lawrence County. See Giglio v. U.S., 405 U.S. 150,
154, 92 S.Ct.763, 31 L.Ed.2d 104, (1972) (the
prosecutor’s office is an entity and as such it is the
spokesman for the Government); U.S. v. Bakshinian,
65 F.Supp2d 1104, 1106 (C.D. Cal 1999) (prosecutor’s
statement is admission by party-opponent).
Every crime has a timeline, something that
should not change based on which defendant is on
trial. The person who started this murder scheme
did not change during the decade between trials, but
in
Piper’s
resentencing
the
prosecutor’s
characterization of what occurred did, and the two
characterizations are incompatible.
The Government strived to paint both Page and
Piper as the one who did the first act; the one who
without these actions, this murder would not have
occurred. Admitting the prosecutor’s statements are
relevant to the relative culpability of Page and Piper
which would have provided the factfinder a basis to
conclude that, if Page was the one who started this,
then Piper was less culpable of the offense and
deserving of a life sentence instead of the death
penalty. As a result, the statement made by the
prosecutor is proper mitigation evidence.

25

The Government’s core argument was that
Piper was the leader and this evidence would clearly
rebut that argument.
Failing to admit this
mitigation evidence of admissions by the partyopponent violated Piper’s due process rights to a fair
trial. As a result, this case should be remanded with
an order directing the trial court to admit statements
made in the Government’s closing argument in Elijah
Page.
III.

WHETHER PIPER WAS AFFORDED
INEFFECTIVE ASSISTANCE OF
COUNSEL WHEN TRIAL COUNSEL
ADMITTED AGGRAVATING FACTORS
WITHOUT HIS CONSENT, AND FAILED
TO INVESTIGATE WITNESSES, IN
VIOLATION OF THE SIXTH AND
FOURTEENTH AMENDMENTS OF THE
UNITED STATES CONSTITUTION.

In Strickland v. Washington, 466 U.S. 668, 684686, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984), the Court
stated:
In a long line of cases that includes
Powell v. Alabama, 287 U.S. 45, 53
S.Ct. 55, 77 L.Ed 158 (1932), Johnson
v. Zerbst, 304 U.S. 458 58 S.Ct. 1019,
82 L.Ed. 1461 (1938), and Gideon v.
Wainwright, 372 U.S. 335, 83 S.Ct.
792, 9 L.Ed.2d 799 (1963), this Court
has recognized that the Sixth
Amendment right to counsel exists,
and is needed, in order to protect the

26

fundamental right to a fair trial. The
Constitution guarantees a fair trial
through the Due Process Clauses, but
it defines the basic elements of a fair
trial largely through the several
provisions of the Sixth Amendment,
including the Counsel Clause:
Thus, a fair trial is one in which
evidence subject to adversarial
testing is presented to an impartial
tribunal for resolution of issues
defined in advance of the proceeding.
The right to counsel plays a crucial
role in the adversarial system
embodied in the Sixth Amendment,
since access to counsel's skill and
knowledge is necessary to accord
defendants the "ample opportunity to
meet the case of the prosecution" to
which they are entitled. Adams v.
United States ex rel. McCann, 317
U.S. 269, 275, 276, 63 S.Ct. 236, 87
L.Ed. 268 (1942); see Powell v.
Alabama, supra, 287 U.S. at 68-69.
Id.
The
question
is
whether
counsel's
representation “amounted to incompetence under
‘prevailing professional norms,’ not whether it
deviated from best practices or most common custom.”
Harrington v. Richter, 562 U.S. 86, 94 131 S.Ct. 770,
788, 178 L.Ed.2d 624 (2011) (quoting Strickland, 466
U.S. at 690).

27

A fair trial is not provided if the evidence is not
subjected to adversarial testing:
The Sixth Amendment recognizes the
right to the assistance of counsel because
it envisions counsel's playing a role that
is critical to the ability of the adversarial
system to produce just results. An
accused is entitled to be assisted by an
attorney, whether retained or appointed,
who plays the role necessary to ensure
that the trial is fair.
Strickland v. Washington, supra at 685, 686.
(Emphasis added.)
The adversarial process protected by the Sixth
Amendment requires that the accused have “counsel
acting in the role of an advocate.”
Andres v.
California, 386 U.S. 738, 743, 87 S.Ct. 1396, 18 L.Ed.
2d 493 (1967). If the process loses its character as a
confrontation between adversaries, the constitutional
guarantee is violated. U.S. v. Cronic, 466 U.S. 648,
657, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984).
A defense attorney’s role is to subject the
evidence to the adversarial system, and not to call
witnesses who can bolster the Government’s case.
The Eighth Circuit Court of Appeals has discussed
how calling a witness who could become a witness for
the prosecution makes little sense. In Walls v.
Bowersox, 151 F.3d 827, 834 (8th Cir. 1998), counsel
did not call family members who were unwilling to
testify in mitigation in the capital case. The Court
noted that “it makes little sense to force unwilling
family to testify in mitigation” as the simplest
questions would have been more damning evidence

28

than anything presented by the prosecution. Id. As
a result, defense counsel should not call a witness who
will harm the client’s case.
Further, this Court recently held that it is
structural error for an attorney to admit his client’s
guilt without his client’s authority to do so. McCoy v.
Louisiana, 138 S.Ct. 1500, 584 U.S. ____, 200 L.Ed. 2d
821, (2017). A client’s autonomy supersedes an
attorney’s strategy with the Court noting that:
“With individual liberty – and, in capital
cases, life – at stake, it is the defendant’s
prerogative, not counsel’s, to decide on
the objective of the defense: to admit
guilt in the hope of gaining mercy at the
sentencing stage, or to maintain his
innocence, leaving it to the State to prove
his guilt beyond a reasonable doubt.”
Id.
During the mitigation phase of this trial, the
defense called two expert doctors, one a psychologist
and the other a neuropsychiatrist, to admit that Piper
committed three aggravating factors within SDCL
23A-27A-1, removing the state from their burden of
proof. Piper, Re-Sentencing, 1572-1573, 1641, 1647,
1655. The doctors essentially also relayed Piper’s
own admissions, without any record of whether Piper
was aware he was essentially waiving his argument
that he did not commit any aggravating factors.
In this case, the trial strategy of calling two
expert witnesses to testify regarding the existence of
three aggravating factors cannot be considered
reasonable. Prejudice is apparent as there are few
witnesses who could have done a better job

29

summarizing the state’s evidence than these two
defense experts who used Piper’s own statements to do
so. Defense counsel, and the defense experts, did not
advocate on behalf of Piper but rather made the
Lawrence County State’s Attorney’s role easier. This
was not reasonable trial strategy, nor was it done with
Piper’s consent.
Next, due to the near ten year time period
between the two sentencings, all updated criminal
history should have been disclosed to the defense
pursuant to the right to confront one’s accusers and
impeach their testimony, guaranteed under the Sixth
Amendment to the United States Constitution.
Davis v. Alaska, 415 U.S. 308, 316, 94 S.Ct. 1105, 39
L.Ed.2d 347 (1974) (cross-examiner allowed to
impeach and discredit the witness); State v. Wiegers,
373 N.W.2d 1, 10 (S.D. 1985) (holding that defendants
are constitutionally entitled to impeach the
prosecution's key witness by showing that those
pivotal witnesses are biased); See SDCL 19-19-607
(any party may attack a witness’s credibility); SDCL
19-19-608 (witness’s character for truthfulness or
untruthfulness); SDCL 19-19-609 (impeachment by
evidence of a criminal conviction).
Instead, Tom Curtis testified as a jail informant
and provided incriminating testimony about Piper
seeking to kill guards in an attempt to escape. Piper,
Re-Sentencing, 607-654. The defense team did not
obtain an updated criminal history of Mr. Curtis,
which would have revealed a pending felony rape case,
among additional criminal history. This failure to
adequately prepare to cross-examine Curtis resulted
in damaging aggravation testimony without any
ability to impeach Curtis on his criminal record. See

30

Thompson v. Calderon, 120 F.3d 1045, 1054 (9th Cir.
1997) (defense counsel’s failure to investigate and
impeach informant severely prejudiced defendant).
The cumulative effect of the State withholding
exculpatory or impeachment evidence can result in a
due process violation. Smith v. Secretary, Dept. of
Corrections, 572 F.3d 1327 (11th Cir. 2009). In Smith,
the government did not disclose “motive to testify”
information for some of its witnesses. Smith noted:
[I]t is essential that the process not end
after each undisclosed piece of evidence
has been sized up. The process must
continue because Brady materiality is a
totality-of-the-evidence
macro
consideration, not an item-by-item micro
one . . . . Cumulative analysis of the
force and effect of the undisclosed
evidence matters because the sum of the
parts almost invariably will be greater
than any individual part.
Id. at 1346-47.
The Sixth Circuit Court of Appeals, in the case
of Higgins v. Renico, 470 F.3d 624, 633 (6th Cir. 2006)
stated:
A number of courts, including this one,
have found deficient performance where,
as here, counsel failed to challenge the
credibility of the prosecution's key
witness. See, e.g., Lindstadt v. Keane,
239 F.3d 191, 204 (2nd Cir. 2001) (finding
ineffective assistance of counsel where,
among other things, counsel's "failure to
investigate prevented an effective

31

challenge to the credibility of
prosecution's only eyewitness").

the

Id.
Giglio v. United States is akin to this case. In
Giglio, a key witness testified that he was not getting
any promises by the Government. 405 U.S. at 151
(1972). This was untrue. Id. The prosecutor trying
the case was unaware of the agreement and therefore
did not correct the false testimony. Id. at 153. The
Court nevertheless held that the failure to correct the
false testimony violated the defendant’s rights,
strengthening due process protection with a clear rule
expanding the ways in which the defendant could
satisfy the knowledge requirement.
Anne Bowen
Poulin, Convictions Based on Lies: Defining Due
Process Protection, 116 PENN ST. L. REV. 331, 339
(2011).
Finally, the defense did call as a mitigation
witness Sister Bagrielle Crowley. Sister Crowley
offered spiritual guidance with Piper’s conversion to
Catholicism and is Piper’s godmother. Sr. Crowley
testified about her in-person conversations with Piper,
including the development of his spiritual life and
common interests of reading, education and music.
Piper, Re-Sentencing, 1676 – 1689. The state was
able to impeach Sr. Crowley, by inferring that Piper
had “conned” a “true angel” into doing something in
violation of prison policy.
Piper, Re-Sentencing,
1806.
The defense made no attempt to follow up with
questions to the Catholic nun as to how she came to
believe that she had violated a prison policy. There
was no investigation to determine whether the

32

prosecution was telling the truth when
prosecution claimed she violated prison policy.

the

In conclusion, trial counsel failed to subject the
evidence to adversarial testing by admitting
aggravating factors without Piper’s consent. Next,
trial counsel failed to investigate Tom Curtis’s
criminal history, while letting the State discredit a key
witness, Sister Crowley, without any basis for the
accusation. The combination of these errors shows
that Piper received ineffective assistance of counsel.
CONCLUSION
For the foregoing reasons, the Court should
grant the petition for a writ of certiorari.
Respectfully submitted this 10th day of March,
2020.
/s/ Ryan Kolbeck
RYAN KOLBECK
KOLBECK LAW OFFICE, LLC

505 W. 9TH ST., STE. 203
SIOUX FALLS, SD 57104
(605)306-4384

33

APPENDIX
Appendix A:
(South Dakota Supreme Court Opinion)
Appendix B
(Judgment of Conviction and Sentence)
Appendix C:
(Plea Hearing Transcript)
Appendix D:
(Elijah Page Partial Sentencing Transcript

34

xxxv

